TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Does Not
                      Adequately Assess the Effectiveness
                                  of Its Training



                                         September 2005

                              Reference Number: 2005-10-149




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site - http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 19, 2005


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT



 FROM:                          Pamela J. Gardiner
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – The Internal Revenue Service Does Not
                                Adequately Assess the Effectiveness of Its Training
                                (Audit # 200410020)

 This report presents the results of our review of the Internal Revenue Service (IRS) training
 programs. The audit was conducted to address concerns by Congress and other stakeholders as
 to the adequacy of the IRS’ training programs. The overall objective of this review was to
 evaluate whether training for IRS employees in job series that deal directly with taxpayers and
 their representatives is periodically assessed to ensure its effectiveness.

 Synopsis
 The Federal Workforce Flexibility Act of 20041 requires agencies to regularly assess their
 training efforts to determine whether their training is contributing to the successful completion of
 the agencies’ missions. The IRS has training assessment and development procedures; however,
 these procedures are generally not followed by its operating divisions. Although each operating
 division advised us they follow their own processes, they were generally not able to provide
 documentation to substantiate whether assessments were performed. In 24 (56 percent) of the
 43 training courses we sampled, there was no evidence that an assessment was performed which
 supported changes or updates to the courses. The lack of documentation of the actions taken
 prevented us from verifying whether the IRS is taking steps to ensure employees are getting the
 right training to perform their jobs effectively.



 1
     Public Law 108-411 [S. 129] (2004).
                 The Internal Revenue Service Does Not Adequately Assess the
                                 Effectiveness of Its Training



The IRS incurs substantial expense to use the Integrated Training Evaluation and Measurement
Services system, which is a tool to gather and analyze training data for the purpose of evaluating
and improving training. The IRS has paid a total of approximately $4 million over a 7-year
period to use this system. Nonetheless, it uses this system only to a limited extent. The system
is designed to provide four levels of assessment, and the IRS procedures require the use of all
four levels. The IRS recorded only the Level 1 assessments (employee and instructor class
evaluations) to any significant extent, and there was little evidence indicating this information
was used to improve training. A better strategy and method are needed for achieving the
intended purpose of this system, or it should be discontinued and replaced with a more cost-
effective system.
Employee satisfaction survey comments have been used to make improvements to training.
Each of the operating divisions have evaluated these comments and taken action to address
concerns by changing the process and training content. While the analysis of employee
comments from the surveys has resulted in certain changes in training, there did not appear to be
an analysis of the rankings by divisions and groups to better evaluate problems or training gaps
that are occurring in specific groups or functions. About one-fourth of the workgroups we
reviewed had scores indicating that employees didn’t believe they were getting the training they
needed. An analysis of the groups with lower scores might lead to the identification of problems
that need to be addressed, while groups with high scores might indicate there are best practices
that could be emulated by other groups. This type of analysis could be used to identify whether
the workgroups in a particular job series or function share common concerns or if there are
significant differences among workgroups. This could significantly assist the IRS in its training
assessment and development process.

Recommendations
The Chief Human Capital Officer (CHCO) should require all business units to follow the
assessment and documentation requirements to ensure employees have the knowledge and skills
needed to successfully perform their jobs. Additionally, the CHCO, in coordination with the
Deputy Commissioners, should ensure all IRS components follow established procedures to
evaluate training in order for the IRS to comply with training assessment requirements of the
Federal Workforce Flexibility Act of 2004. The use of the current training evaluation and
measurement system should be required, or an alternate system should be developed that will
allow the IRS to evaluate training effectiveness. Lastly, we recommended the CHCO require the
IRS operating divisions to use the numerical scores from the Employee Satisfaction Survey
question on training to perform further analysis to identify problems or trends and use this
information in the training assessment and development process.



                                                                                                 2
                The Internal Revenue Service Does Not Adequately Assess the
                                Effectiveness of Its Training




Response
IRS management agreed to implement our recommendations. The CHCO, through the Director,
Leadership and Education Division, and the Learning and Education Policy Sub-council will:
   •   Issue policy requiring training needs assessments for mission-critical occupations or
       occupational specialties to identify knowledge and skill gaps. Policy statements will be
       revised to strengthen the requirement to conduct evaluation levels 1, 2, 3, and 4.
   •   Devise a plan for regular review of all training work processes, including those that
       support training evaluations to ensure compliance with the Federal Workforce Flexibility
       Act.
   •   Issue a policy statement that will require the use of available data sources, both
       quantitative and qualitative, including analyses of numerical scores from the Employee
       Satisfaction Survey training question in addition to narrative comments.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Daniel R.
Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                  3
                      The Internal Revenue Service Does Not Adequately Assess the
                                       Effectiveness of Its Training




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Training Assessment and Development Procedures
          Are Generally Not Followed.........................................................................Page 4
                    Recommendation 1:........................................................Page 7

          The System for Training Evaluation and Measurement
          Is Used Only to a Limited Extent .................................................................Page 7
                    Recommendation 2:........................................................Page 11

          Employee Satisfaction Survey Results Could Be Better
          Used to Assist in Training Assessment and Development ...........................Page 12
                    Recommendation 3:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Fiscal Year 2003 Employee Satisfaction Rating
                        of Training for the Job Series Reviewed Within
                        Each Operating Division ....................................................Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 22
                  The Internal Revenue Service Does Not Adequately Assess the
                                   Effectiveness of Its Training




                                         Background

There have been significant concerns expressed by Congress and other Internal Revenue Service
(IRS) stakeholders such as tax practitioners, the National Treasury Employees Union (NTEU),
and the IRS Oversight Board as to the adequacy of the IRS’ training programs. These concerns
relate to whether employees have adequate knowledge of IRS procedures and the tax laws to
effectively perform their duties and deal with the public and tax professionals.
In a public meeting held by the IRS Oversight Board in January 2004, practitioners raised several
concerns about the experience levels and technical ability of IRS employees. A representative of
the National Society of Accountants reported its members have observed an “…expanding
training gap at the IRS…” and that its members “…experience instances where IRS employees
lack experience and skills to handle difficult problem cases and complex problems are shoved
aside.” A representative of the Tax Executive Institute noted that Large and Mid-Size Business
(LMSB) Division specialists need training in accounting principles, the latest technology, and
business practices and stated the LMSB Division must “…ensure that agents receive consistent
and timely training….”
In a prior audit report, we reported that training deficiencies have caused some taxpayer
assistance employees to inaccurately answer tax law questions.1 The issues of tax law accuracy
have also become a Congressional concern and in the past year the Government Accountability
Office (GAO) has been asked to review the quality of the training provided to employees
working in taxpayer assistance centers.
The NTEU stated that within the IRS the amount of training employees receive is not usually an
issue, but rather the problem is the training is often of the wrong type. NTEU officials also
advised us that IRS instructors are not properly evaluated. They were also concerned that IRS
officials have not been receptive to and have not acted on the NTEU’s suggestions to improve
training.
The IRS spends approximately $100 million per year on training for its employees. The IRS has
over 100,000 employees and over 150 different job series operating throughout the nation. Some
of its staff is seasonal and works only during the January through May tax-filing season. There
is a high turnover rate in seasonal staff; consequently, the IRS must hire and train a large number



1
 Taxpayer Assistance Center Employees Improved the Accuracy of Answers to Tax Law Questions but Answered
Some Questions Beyond Their Level of Training (Reference Number 2003-40-157, dated July 2003).
                                                                                                   Page 1
                    The Internal Revenue Service Does Not Adequately Assess the
                                     Effectiveness of Its Training



of inexperienced staff each year. Furthermore, the tax laws that the IRS must administer often
change from year to year.
The IRS is structured to address the needs of specific types of taxpayers through its four main
operating divisions:
        •   LMSB Division.
        •   Small Business/Self-Employed (SB/SE) Division.
        •   Tax Exempt and Government Entities (TE/GE) Division.
        •   Wage and Investment (W&I) Division.
The responsibility for training is decentralized in the IRS based on the precept that the operating
divisions are in the best position to meet the training and educational needs of their employees.
The operating divisions are accountable for developing strategic training plans and goals and
their own training budgets.
Due to concerns about the effectiveness of training Government-wide, Congress passed the
Federal Workforce Flexibility Act of 2004.2 The Act requires agencies to regularly assess their
training efforts to determine if their training is contributing to the successful completion of the
agencies’ missions.
The IRS Chief Human Capital Officer (CHCO) provides tools to the IRS operating divisions and
functional units to assess and evaluate the training they provide their employees. These tools
include the Training Development Quality Assurance System (TDQAS) and the Integrated
Training Evaluation and Measurement Services (ITEMS) system. Additionally, all operating
divisions and functional units receive information from the Employee Satisfaction Survey related
to training.
This audit of the IRS’ efforts to evaluate and improve training is the second in a series of audits
of the IRS’ training programs. Our previous audit evaluated the accuracy and completeness of
IRS training information.3 The scope of this audit covered the training for the five specific job
series that have the most contact with taxpayers and their representatives. These five job series
account for about one-half of the IRS’ total workforce.
    •   Revenue Agent (Series 512) – Examines all types of Federal tax returns.
    •   Tax Technician (Series 526) – This series includes Tax Compliance Officers in the
        SB/SE Division who perform IRS office examinations and related investigations of


2
 Public Law 108-411 [S. 129] (2004).
3
 Information on Employee Training Is Not Adequate to Determine Training Cost or Effectiveness (Reference
Number 2003-10-212, dated September 2003).
                                                                                                       Page 2
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training



        individual taxpayers. It also includes Tax Resolution Representatives in the W&I Division
        who resolve tax law, collection, and customer account issues.
    •   Tax Examiner (Series 592) – Researches, analyzes, and initiates actions on tax issues and
        adjusts taxpayer accounts. Tax Examiners also secure payments and filings for delinquent
        taxes and returns, respectively.
    •   Customer Service Representative (Series 962) – Provides basic procedural and technical
        responses to taxpayer inquiries in person or by telephone.
    •   Revenue Officer (Series 1169) – Collects delinquent accounts and secures delinquent tax
        returns.
This review was performed at the offices of the CHCO and the SB/SE Division National
Headquarters in Washington, D.C. We also made field office visits to LMSB, SB/SE, and
W&I Division offices in Houston, Texas; Philadelphia, Pennsylvania; and Atlanta, Georgia,
respectively.4 The data we analyzed ranged from Fiscal Years (FY) 2002 through 2004. We
performed this audit during the period May 2004 through June 2005. The audit was conducted
in accordance with Government Auditing Standards. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




4
  The TE/GE Division training information was not covered within the scope of this audit. The TE/GE Division
represents approximately 3 percent of the number of employees that are in a job series that deal directly with the
taxpaying public.
                                                                                                              Page 3
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training




                                      Results of Review

Training Assessment and Development Procedures Are Generally Not
Followed

To provide the extensive technical knowledge and skills required of IRS employees to perform
their jobs effectively, the IRS has core training curricula in place for specific job series. Each
curriculum consists of a number of different courses. For example, the Revenue Agent
curriculum in the SB/SE Division consists of 12 different courses. Within each job series, there
can be a number of different categories of jobs. Each job category requires the same basic
qualifications and technical training as other jobs in the same series, but also requires some
degree of specialization.
For example, some of the Revenue
Agents in the LMSB Division specialize                     Table 1: Core Curricula for Selected Job Series
as International Examiners.5 In addition                                              NUMBER OF CORE CURRICULA
to fulfilling the Revenue Agent core                  POSITION
                                                                         SERIES     LMSB        SB/SE       W&I
                                                      TITLE
curriculum requirements, they are                                                   Division   Division    Division
required to take two additional training
                                                      Revenue Agent        512           5          1        N/A
courses in international issues. Likewise,
some Revenue Agents are Computer                      Tax Technician       526        N/A           2             2
Audit Specialists and must take computer
audit training courses. Table 1 shows the             Tax Examiner          592       N/A          29             7
number of core curricula associated with              Customer
the five job series in the three operating            Service               962       N/A           4          30
                                                      Representative
divisions we reviewed.
                                                      Revenue Officer      1169       N/A           1        N/A
Because of the complexity of ensuring its
curricula and associated courses are           TOTAL                         5         37        39
comprehensive and up-to-date, the IRS
procedures require the IRS divisions and        Source: LMSB, SB/SE, and W&I Learning and Education
                                                staff.
functions to follow a systematic approach
to guide the process of training assessment, analysis, design, development, implementation, and

5
 International Examiners conduct the international aspects of a field examination of returns, which may contain
unusually difficult and complex legal, financial, or valuation issues of major proportions.
                                                                                                           Page 4
                     The Internal Revenue Service Does Not Adequately Assess the
                                      Effectiveness of Its Training



evaluation. For guidance on conducting the training assessment, the Internal Revenue Manual
recommends course developers and managers refer to the TDQAS, which is intended to enable
the operating divisions to comply with the requirement to document curricula and course content
and provides a discipline to course development. The assessment phase of the TDQAS lists the
following:
       1. The actions associated with the assessment phase of [the] TDQAS are:
                a. Identify the performance problem.
                b. Determine the focus of training development efforts.
       2. A performance problem is the discrepancy between actual job performance and required
          performance. Performance problems may arise as a result of inadequate performance
          by existing employees, changed job responsibilities, new technology, or newly selected
          employees who lack the necessary job skills.
       3. The second action in the assessment phase is to determine the focus of training
          development efforts. Course development activities are prioritized to ensure that the
          most pressing training needs are given immediate attention.
Notwithstanding these guidelines, the IRS could not provide adequate documentation of actual
assessments of its training to identify differences between actual job performance and required
performance or the steps it takes to address these differences with training.
To determine whether we could trace the steps the IRS takes to ensure its training addresses any
specific performance problems identified, we selected a judgmental sample of 43 training
courses that had been developed and/or updated since FY 2002 from the LMSB, SB/SE, and
W&I Divisions. We reviewed the documentation associated with each course to determine the
basis for the development of or the update to the curricula and whether the assessment phase
requirements of the TDQAS were followed. The IRS Learning and Education (L&E) Policy
Handbook6 requires all education components in the IRS to maintain documentation used to
develop curricula and learning content. This includes documentation on updates and other
changes caused by tax law changes or information received from students or instructors.




6
    Internal Revenue Manual 6.410.1.3.1 (9).
                                                                                            Page 5
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training



In 24 (56 percent) of the 43 training                Table 2: Analysis of Developed and Updated Courses
courses sampled, there was no evidence                                Number of       Number of Courses With
that an assessment was performed                 Operating
                                                                       Courses        No Information to Justify
                                                 Division
which supported the changes or updates                                Reviewed               the Change
made to the training courses. For
                                                 LMSB                     14                      13
19 (44 percent) of the 43 training
courses, there was some evidence, such           SB/SE                    15                       7
as employee and/or instructor feedback,
                                                 W&I                      14                       4
that demonstrated the basis for the
changes or updates to the training               TOTAL                    43                      24
courses. Table 2 shows a breakdown
                                                  Source: Treasury Inspector General for Tax Administration
of the results.                                   analysis of course changes and updates.
Although each of the operating
divisions stated they performed evaluations, they did not have documentation to confirm this in
the instances we noted. For example, of the training courses in our sample, 14 were from the
LMSB Division. The LMSB Division was able to provide evidence of a TDQAS evaluation for
only one of these courses. However, LMSB Division officials stated they followed the TDQAS
process for all courses. They also stated they assess which courses need to be updated in light of
new initiatives, procedural changes, and tax law changes and this information is obtained
through feedback from employees, Subject Matter Experts,7 and program managers.
The SB/SE Division stated they use a method called performance consulting,8 which uses
procedures similar to those contained in the TDQAS. However, when time constraints become a
factor, SB/SE Division officials indicated they abbreviate the process and may not document
what steps were taken to assess whether to update or modify a training course. The
W&I Division staff informed us they have their own Learning Product Development Policy
which, like the TDQAS, also requires maintaining documents to show why courses are being
modified or updated. However, 4 (29 percent) of the 14 courses we reviewed did not contain this
type of information.
By not following the recommended procedures and maintaining sufficient documentation to
support the actions taken and the training products produced in the TDQAS assessment phase,
the IRS operating divisions increase the chances that gaps in the needed and actual skills or
performance will go undetected and that training resources will be not be used effectively.
Furthermore, the lack of documentation of the actions taken prevented us from verifying whether

7
 Subject Matter Experts are assigned to develop one or several training courses within a training program.
8
 Performance consulting is a problem identification process that looks at the difference between “what is” and
“what should be” for a particular situation. This process is documented in the SB/SE Division’s L&E function Core
Operating Processes.
                                                                                                         Page 6
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training



the IRS is taking steps to ensure employees are getting the right training to perform their jobs
effectively.


Recommendation
Recommendation 1: The CHCO should require all business units to follow the requirements
to assess and develop training and to properly document this process. Assessments should
address the concerns raised by various stakeholders and the IRS’ own internal evaluation tools
and ensure the employees have the knowledge and skills needed to successfully perform their
jobs. This process should be reviewed to ensure the training is appropriately evaluated, the
reasons for modifying courses are valid, and post reviews assess the effectiveness of the changes.

        Management’s Response: The CHCO, through the Director, Leadership and
        Education Division, and the L&E Policy Sub-council,9 will issue policy requiring training
        needs assessments for mission-critical occupations or occupational specialties to identify
        knowledge and skill gaps. Revised policy statements will be issued to strengthen the
        requirement to conduct evaluation levels 1, 2, 3, and 4. This will ensure training is
        appropriately evaluated and will create the necessary documentation to substantiate the
        validity of course modifications and the effectiveness of the changes.


The System for Training Evaluation and Measurement Is Used Only to
a Limited Extent

The GAO stresses the importance of Federal Government agencies evaluating their own training
and development programs to demonstrate how their training efforts help develop employees and
improve the agencies’ performance.10 The GAO states:
      Because the evaluation of training and development programs can aid decision
      makers in managing scarce resources, agencies need to develop evaluation processes
      that systematically track the cost and delivery of training and development efforts and
      assess the benefits of these efforts. To the extent possible, Federal Government
      agencies need to ensure data consistency across the organization. Variations in


9
  The L&E Policy Sub-Council establishes IRS-wide policies, strategies, and initiatives to promote the delivery of
effective learning and performance support to all IRS managers and employees.
10
   Human Capital: A Guide for Assessing Strategic Training and Development Efforts in the Federal Government
(GAO-04-546G, dated March 2004).
                                                                                                            Page 7
                    The Internal Revenue Service Does Not Adequately Assess the
                                     Effectiveness of Its Training



      methods used to collect data can greatly affect the analysis of uniform, quality data
      on the cost and delivery of training and development programs.
As previously stated, with the passage of the Federal Workforce Flexibility Act of 2004,
Congress now requires agencies to determine if their training is contributing to the effective
completion of their mission.
The professional education community follows the four-level Kirkpatrick Model11 with respect to
training evaluation. The IRS has adapted this model through implementing the ITEMS system
which provides guidance, functionalities, and tools to gather and analyze training data for the
purpose of improving training at the IRS. The ITEMS system consists of four interrelated
training evaluation processes which the IRS has defined as:
     •    Level 1 – Reaction: Trainees and instructors complete an after
          course evaluation to provide, among other things, their perceptions
          of training quality and satisfaction with the training.
     •    Level 2 – Achievement: Trainees are assessed at the end of training,
          usually through tests, whether learning has occurred (i.e., changed
          attitudes, increased knowledge, and/or increased skills) as a result of
          attending a training program.
     •    Level 3 – Effectiveness: Trainees and their managers are surveyed
          after training to determine whether it has resulted in on-the-job proficiency
          in employees’ performance.
     •    Level 4 – Organizational Results: Post-training data are analyzed to
          determine the time to achieve intended capability and the impact of training
          on organizational performance.
The IRS L&E Policy Sub-Council completed the development of an ITEMS system policy in
May 2003, which provides the following guidance as to when to perform each level of
evaluation:




11
  The Kirkpatrick evaluation model is a system for assessing a specific training activity’s value to a specific
business.
                                                                                                                  Page 8
                    The Internal Revenue Service Does Not Adequately Assess the
                                     Effectiveness of Its Training




 Evaluation Level        Required for the following types of courses

 Level 1                 All courses longer than 1 hour.

 Level 2                 All E-Learning12 courses, all new courses, and any existing courses that
                         previously had an associated Level 2 evaluation.

 Level 3                 Every course which requires the Level 2 evaluation.

 Level 4                 All mission-critical training programs.13


In FY 2004, about 90 percent (38,471 of              Table 3: Percentage of Level 1 Evaluations
42,933) of the Level 1 evaluations for                     Recorded in the ITEMS System
classes that required Level 1 evaluations
                                              Fiscal Year       LMSB          SB/SE          W&I
had been completed and recorded in the
ITEMS system. The LMSB, SB/SE, and            2004                91%           93%           82%
W&I Divisions decided to place more           2003                94%           63%           71%
emphasis on the Level 1 evaluations in
FY 2004 and achieved significant increases Source: ITEMS system Evaluation Proficiency Index
                                              Report.
in the number of evaluations conducted.
Table 3 shows the percentage of Level 1 evaluations recorded in the ITEMS system.
Twenty-six (59 percent) of the 44 courses we selected for review had Level 1 evaluations
recorded in the ITEMS system. None of the three operating divisions we reviewed had any of
the Level 2 evaluations on the ITEMS system for FY 2004. All three indicated they did perform
some testing; however, it was not the type required by the ITEMS system. The W&I Division
often did not formally administer the tests. Instead, employees completed the tests and the
instructors reviewed the tests and answers with the students during class but the tests were not
graded and scores were not recorded. LMSB and SB/SE Division officials stated they conduct
Level 2 evaluations on new recruits. In addition, LMSB Division officials stated they have never
taken the time to ensure the Level 2 information was being entered into the ITEMS system.
SB/SE Division officials stated that the ITEMS system is limited to providing only an average
score; therefore, they prefer to use a separate database that provides more detailed training
information on its new recruits.



12
   E-learning is anything delivered, enabled, or mediated by electronic technology for the explicit purpose of
learning.
13
   Mission critical training programs are those that relate to the IRS programs to process returns, examine returns,
and collect money owed to the IRS.
                                                                                                               Page 9
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training



The information gathered from Level 1 and 2 assessments should be used to make changes to
training courses and programs based on employee and instructor comments and observations.
While all three business units stated they used this type of data when updating or revising
courses, our review of 43 courses that were changed in the past year does not support this
contention. Despite the fact that a significant amount of time and effort is spent to gather and
record Level 1 evaluations in the ITEMS system, there was evidence for only 3 of the 43 courses
we reviewed that either Level 1 or 2 assessments were used when updating the courses and were
recorded in the ITEMS system. Consequently, for the courses in our sample, we were not able to
verify whether the IRS is using the data it records in the system.
The operating divisions performed Level 3 evaluations on only 86 (4 percent) of 2,366 of the
courses that required these evaluations in FY 2004. We asked officials from the operating
divisions why so few Level 3 evaluations were actually performed. SB/SE Division officials
stated they do not fully utilize Level 3 because administering these evaluations is labor intensive.
W&I Division officials also believe the evaluations are too labor intensive. Because most of the
W&I Division’s training relates to Campus14 employees and these employees don’t have email or
Internet access, it must administer paper based assessments. This increases the workload
because of the time needed to administer, collect, and input results into the ITEMS system
database. LMSB Division officials stated instead of performing Level 3 evaluations, they
interview new hires, training managers, and on-the-job instructors to gather feedback about
training issues. The feedback is summarized in a report and is submitted to the training
managers to make improvements to the individual training classes.
Both SB/SE and W&I Division officials have stated they plan to perform more Level 3
evaluations. However, neither indicated how many they planned to perform. Both stated
additional resources would be needed to develop, administer, collect, and input surveys into the
ITEMS system.
None of the three divisions have developed or administered any Level 4 evaluations. Before the
Level 4 evaluation can be conducted, the prerequisite Level 2 and Level 3 evaluations must be
completed. Level 4 evaluations can be very resource intensive to develop and costly to
administer. An Office of Personnel Management official we interviewed was not aware of any
Federal agencies that conduct Level 4 evaluations. Few organizations, including private sector
companies, have developed Level 4 evaluations. Per a 2003 survey of private companies by the
American Society for Training & Development, fewer than 10 percent of the companies
conducted Level 4 evaluations.


14
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions,
correct errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts. Many of
the employees don’t have computers assigned to them.
                                                                                                         Page 10
                The Internal Revenue Service Does Not Adequately Assess the
                                 Effectiveness of Its Training



The Level 1 assessment can provide measurement of participants’ reactions or attitudes toward
specific components of the program or course. Level 2 and the other higher level assessments
are intended to determine what program or course participants actually learned from the training
event as well as its effect on organizational performance. As such, a comprehensive process to
evaluate and improve training should make use of the Level 1 and higher level assessments.
Because the IRS uses the ITEMS system on        Table 4: Estimated Cost of the ITEMS System Incurred
only a limited basis, we believe it should                 From FY 1998 Through FY 2004
evaluate the cost benefit of continuing to
                                                       Fiscal Year                      Cost
support the ITEMS system. The IRS,
which contracts to use the system, has paid                1998                         $172,000
the contractor just over $4 million. Table 4               1999                         $549,000
shows the estimated cost incurred from                     2000                         $480,000
FYs 1998 through 2004. Future costs of                     2001                         $612,000
the ITEMS system are expected to total
                                                           2002                         $605,000
about $2.3 million over the next 4 years
(about $575,000 annually). The contract is                 2003                         $803,000
based on a fixed price and even though the                 2004                         $800,000
IRS is not using all functions and services              TOTAL                       $4,021,000
provided, the IRS must still pay the full
contract amount. It cannot pay only for the     Source: IRS Leadership and Education function.
functions and services used.
If the operating divisions do not use the ITEMS system consistently as required, the funds spent
on this system could be put to better use. In such case, the IRS would need to develop a defined,
systematic way to evaluate training consistently among the operating divisions and functional
units. Otherwise, a better strategy and method are needed for achieving the intended purpose of
the ITEMS system or it should be discontinued and replaced with a more cost-effective system.
It is critical for the IRS to have a repeatable and effective method to evaluate training.

Recommendation

Recommendation 2: The CHCO, in coordination with the Deputy Commissioners, should
ensure all IRS components follow established procedures to evaluate training in order for the
IRS to comply with training assessment requirements of the Federal Workforce Flexibility Act
of 2004. The use of the ITEMS system should be required or an alternate system should be
developed that will allow the IRS to evaluate training effectiveness. The results of the training
evaluations should be incorporated into the TDQAS process.
       Management’s Response: The CHCO, through the Director, Leadership and
       Education Division, and the L&E Policy Sub-council, will devise a plan for regular
                                                                                                 Page 11
                    The Internal Revenue Service Does Not Adequately Assess the
                                     Effectiveness of Its Training



         review of the training process to ensure compliance with the Federal Workforce
         Flexibility Act. The L&E Analysis Project (LEAP)15 has been charged to review all
         training work processes, including those that support training evaluation. Decisions
         about which business processes are approved and the eventual organization structure to
         support those processes will be made in December 2005. The CHCO will issue guidance
         implementing the required evaluation process.


Employee Satisfaction Survey Results Could Be Better Used to Assist
in Training Assessment and Development

The IRS conducts an all employee survey each year to obtain feedback on employees’ overall
job satisfaction and workplace issues, including training issues.16 To assess employees’ opinions
about training, the survey asks for employees to respond to the statement, “I receive the training I
need to perform my job effectively.” Employees are asked to respond to the statement using a
scale that ranges from strongly agree (5 points) to strongly disagree (1 point). Employees may
also provide narrative comments. All three divisions have a process in place to review narrative
comments; the LMSB Division has its Performance, Quality, and Audit Assistance section; the
W&I Division has its Division Partnering Council;17 and the SB/SE Division has established a
review team of L&E function staff and field staff from each unit.
Many of the comments from employees in the SB/SE and LMSB Divisions were related to the
discontinuation of the seminar/classroom style Continuing Professional Education (CPE)18
program. Employees believed the CPEs should not be discontinued because the face-to-face
interactions with instructors and colleagues were an important part of the CPE sessions. In
addition, employees requested a wider range of technical courses to be taught at the CPEs. The
LMSB Division received over 600 comments on training in FY 2003. The SB/SE Division
analyzed over 1,400 comments related to training.



15
   The LEAP is charged with reorganizing the L&E servicewide organization to improve processes and procedures
to lead to a more efficient organization with a goal of an overall reduction to required resources. The project is to be
completed by December 2005.
16
   The survey is contracted by the Chief Financial Officer and is administered by the Performance, Budgeting,
Planning, and Performance Office.
17
   The Division Partnering Council’s purpose is to serve as a decision-making body that advances the mission of the
IRS and the vision of the division.
18
   CPE is an educational program that is provided to employees to keep them informed on the latest changes or
updates regarding subject matter related to their job position.
                                                                                                              Page 12
                   The Internal Revenue Service Does Not Adequately Assess the
                                    Effectiveness of Its Training



As a result of these comments, the SB/SE and LMSB Divisions appointed redesign teams for
their CPE programs. However, the seminar/classroom style CPEs will be conducted selectively
and when appropriate. The SB/SE and LMSB Divisions have started to develop web-based
training for their employees.19 Both divisions plan to allow employees to choose the sessions
they want to attend after conferring with and getting approval from their managers on their CPE
plan.
W&I Division employees had concerns with the quality of CPE instructors as well as the quality
of the training material presented, which they believed was out-dated and/or did not impact their
day-to-day duties. However, W&I Division officials did not provide us the number of comments
related to these concerns. One unit within the W&I Division is studying approaches to address
these problems. One result of the study is the selection of a cadre of full time instructors20 who
will be provided additional training. The instructors will report to Supervisory Training
Coordinators who are responsible for the quality of training and also for evaluating the
instructors. In addition, the W&I Division plans to develop a Training and Quality Resource Site
on the Internet to provide teaching tips and technical information about IRS processes, systems,
and tax matters, which will allow the instructors and coordinators to share ideas and issues with
others.
While the analysis of employee comments from the surveys has resulted in certain changes in
training, there did not appear to be an analysis of the rankings by divisions and groups to better
evaluate problems or training gaps that are occurring in specific groups or functions. The
following table shows the number of workgroups in the job series we reviewed in the LMSB,
SB/SE, and W&I Divisions in four specific ranges of satisfaction with training for the FY 2003
survey.




19
   Web-based training refers to conducting training through the use of computers instead of a classroom
environment.
20
   These positions are intended not to exceed 3 years.


                                                                                                          Page 13
                      The Internal Revenue Service Does Not Adequately Assess the
                                       Effectiveness of Its Training



           Table 5: FY 2003 Employee Satisfaction Rating of Training for the Five Job Series Reviewed
                                           (By Operating Division)21
                          Groups with       Groups with        Groups with   Groups with
       Operating          Scores of 1.9     Scores from        Scores from   Scores of 4 or   Total Number
       Division             or Less          2.0 to 2.9         3.0 to 3.9       More          of Groups
                                16                172               348           130
           LMSB                                                                                 666
                             (2.40%)           (25.83%)          (52.25%)      (19.52%)
                                61                766             1,627           399
            SB/SE                                                                               2,853
                             (2.14%)           (26.85%)          (57.03)       (13.99%)
                                13                429               921           198
            W&I                                                                                 1,561
                             (0.83%)           (27.48%)          (59.00%)      (12.68%)

      Source: IRS Employee Satisfaction Survey results.

About one-fourth of the workgroups we reviewed had group scores of three or less indicating
that many employees don’t believe they are getting the training they need. Conversely, only
14 percent of the workgroups had a training question score of 4 and higher indicating the
employees in these groups were very satisfied with training. A detailed analysis of scores within
specific job series would provide more detailed information about the training perceptions of
specific employees (see Appendix IV). An analysis of the groups with lower scores might lead
to the identification of problems that need to be addressed, while groups with high scores might
indicate there are best practices in some groups that could be emulated by other groups. This
type of analysis could be used to identify whether the workgroups in a particular job series or
function share common concerns or if there are significant differences among workgroups. This
could significantly assist the IRS in its training assessment and development process. Without
considering this type of information, the IRS is missing an opportunity to make the best use of
survey results to help further achieve the organization’s mission and goals.

Recommendation

Recommendation 3: The CHCO should require the IRS operating divisions to use the
numerical scores from the Employee Satisfaction Survey training question in addition to
narrative comments. The numerical training scores should be analyzed within each job series to
identify any relevant trends. This information should be used as part of the TDQAS process.
           Management’s Response: The CHCO, through the Director, Leadership and
           Education Division, and the L&E Policy Sub-council, will issue a policy statement in


21
     Percentages do not always total to 100 due to rounding.

                                                                                                        Page 14
         The Internal Revenue Service Does Not Adequately Assess the
                          Effectiveness of Its Training



conjunction with its corrective action to Recommendation 1 of this report. The policy
will direct the use of available data sources, both quantitative and qualitative, when the
data sources are judged to be reliable and representative. This will include analyses of
numerical scores from the Employee Satisfaction Survey training question in addition to
narrative comments.




                                                                                   Page 15
                The Internal Revenue Service Does Not Adequately Assess the
                                 Effectiveness of Its Training



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate whether training for Internal Revenue
Service (IRS) employees in job series that deal directly with taxpayers and their representatives
is periodically assessed to ensure its effectiveness. We limited our review to five job series that
most often interact with taxpayers and their representatives (Revenue Agent [GS-512]; Tax
Technician [GS-526]; Tax Examiner [GS-592]; Customer Service Representative [GS-962];
Revenue Officer [GS-1169]) and to the three business units that had the greatest number of these
employees (Large and Mid-Size Business [LMSB], Small Business/Self-Employed [SB/SE], and
Wage and Investment [W&I] Divisions). To accomplish this objective, we:
I.     Evaluated how the Learning and Education (L&E) function staff assigned to the Chief
       Human Capital Officer (CHCO) worked with the embedded L&E function staffs within
       the LMSB, SB/SE, and W&I Divisions to assess job performance gaps and possible
       training-based solutions for the development and/or update of core curriculum.
       A. Determined what training guidance the CHCO provided to the divisions.
       B. Interviewed selected external stakeholders to gain their perspective on the status of
          training in the IRS and any suggestions for improvement.
       C. Interviewed the LMSB, SB/SE, and W&I Divisions embedded L&E function staff,
          division program managers, and project managers and determined the processes used
          to assess job performance gaps and possible training-based solutions for the
          development and update process of their core curriculum.
       D. Verified the W&I Division’s Core Curriculum for the three Job Series GS - 526, 592,
          and 962 and the positions that have the most impact with taxpayers.
       E. Verified the SB/SE Division’s Core Curriculum for the five Job Series GS - 512, 526,
          592, 962, and 1169 and the positions that have the most impact with taxpayers.
       F. Verified the LMSB Division’s Core Curriculum for the Job Series GS - 512 and the
          positions that have the most impact with taxpayers.
       G. Selected a judgmental sample of LMSB, SB/SE, and W&I Divisions Core
          Curriculum courses to ensure that the five job series that most often interact with
          taxpayers and their representatives are evenly represented in our sample. Also, we
          reviewed the documentation associated with the courses to determine whether the


                                                                                           Page 16
               The Internal Revenue Service Does Not Adequately Assess the
                                Effectiveness of Its Training



          divisions were adequately assessing job performance gaps and possible training-based
          solutions when modifying courses. Our judgmental sample of 43 courses was
          selected from a population of 796 training courses. The judgmental sample was
          based on the following criteria:
          •   Selecting a minimum of one core curriculum class per job position under the job
              series directly impacting taxpayers.
          •   Core courses that were developed or changed in the last 24 months.
          •   Core courses that had several days of training.
II.    Evaluated how the CHCO’s L&E function staff and the divisions’ L&E function staff
       used the Employee Satisfaction Survey results to assess both training needs and
       effectiveness.
       A. Interviewed the CHCO’s L&E function staff and determined if they used the
          Employee Satisfaction Survey results and workgroup information regarding training
          to assess both training needs and effectiveness.
       B. Interviewed Survey Program Leaders in the LMSB, SB/SE, and W&I Divisions and
          determined how training issues are assessed and resolved based on the Employee
          Satisfaction Survey.
       C. Determined whether the embedded L&E function staff in the LMSB, SB/SE, and
          W&I Divisions received training issues developed by the Employee Satisfaction
          tracker workgroups.
III.   Evaluated how the CHCO’s L&E function staff and the divisions’ L&E function staff
       used the Integrated Training Evaluation and Measurement Services (ITEMS) system data
       to assess both training needs and effectiveness.
       A. During the opening conference with the CHCO, we determined what training
          guidance is provided to the divisions as a result of the ITEMS system.
       B. Interviewed members of the Human Capital Office Leadership & Education function
          staff and determined:
          1. Whether the ITEMS system reports are routinely distributed and if so, to whom
             and for what purposes.
          2. Who is responsible for testing the validity of data contained in the ITEMS system
             database.
          3. What training services the staff provides to the various divisional L&E function
             staffs, program managers, or project managers.
                                                                                        Page 17
        The Internal Revenue Service Does Not Adequately Assess the
                         Effectiveness of Its Training




C. Determined whether the required ITEMS system evaluations (Levels 1, 2, and 3)
   were performed by the divisions and recorded in the ITEMS system database.
D. Evaluated the usefulness of the Level 1, 2, and 3 Evaluation Reports. Interviewed
   staff in the LMSB, SB/SE, and W&I Divisions to determine how useful the data are.
E. Summarized by assessment level the number of courses that require Level 1, 2, or 3
   assessments. Determined the reasons why the courses were subjected to different
   assessment levels.
F. Determined if and how the IRS staff uses the ITEMS system reports to improve
   training.




                                                                                Page 18
               The Internal Revenue Service Does Not Adequately Assess the
                                Effectiveness of Its Training



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Kevin P. Riley, Audit Manager
Kenneth E. Henderson, Lead Auditor
Michael S. Laird, Senior Auditor
David P. Robben, Senior Auditor
Michael Della Ripa, Auditor
Stephen E. Holmes, Auditor




                                                                                      Page 19
              The Internal Revenue Service Does Not Adequately Assess the
                               Effectiveness of Its Training



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Human Capital Officer OS:HC
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Chief Human Capital Officer OS:CFO




                                                                        Page 20
                      The Internal Revenue Service Does Not Adequately Assess the
                                       Effectiveness of Its Training



                                                                                                 Appendix IV

      Fiscal Year 2003 Employee Satisfaction Rating of
      Training for the Job Series Reviewed Within Each
                      Operating Division                                       1




              Groups With             Groups With            Groups With            Groups With         Total
 Job
Series
            Scores Less Than       Scores From 2.0 To     Scores From 3.0 To       Scores Of 4.0 or   Number Of
                   1.9                     2.9                    3.9                   More           Groups
                             LARGE AND MID-SIZE BUSINESS DIVISION                                        666
                    16                     172                   348                     130
    512                                                                                                  666
                   2.40%                  25.83%               52.25%                  19.52%
                          SMALL BUSINESS AND SELF-EMPLOYED DIVISION                                     2,853
                     8                     155                   369                     110
    512                                                                                                  642
                   1.25%                 24.14 %               57.48 %                 17.13 %
                    10                      95                   180                     29
    526                                                                                                  314
                   3.18%                  30.25%                57.32%                  9.24%
                    32                     251                   528                     110
    592                                                                                                  921
                   3.47%                  27.25%               57.33%                  11.94%
                     2                      84                   217                     39
    962                                                                                                  342
                   .58%                   24.56%               63.45%                  11.40%
                     9                     181                   333                     111
    1169                                                                                                 634
                   1.42%                  28.55%               52.52%                  17.51%
                                  WAGE & INVESTMENT DIVISION                                            1,561
                     0                      90                   176                     26
    526                                                                                                  292
                    0%                    30.82%                60.27%                  8.90%
                     3                     112                   386                     121
    592                                                                                                  622
                   .48%                   18.01%               62.06%                  19.45%
                    10                     227                   359                     51
    962                                                                                                  647
                   1.55%                  35.09%                55.49%                  7.88%
Source: Internal Revenue Service Employee Satisfaction Survey Results.

1
    Percentages do not always total to 100 due to rounding.



                                                                                                        Page 21
    The Internal Revenue Service Does Not Adequately Assess the
                     Effectiveness of Its Training



                                                    Appendix V


Management’s Response to the Draft Report




                                                          Page 22
The Internal Revenue Service Does Not Adequately Assess the
                 Effectiveness of Its Training




                                                      Page 23
The Internal Revenue Service Does Not Adequately Assess the
                 Effectiveness of Its Training




                                                      Page 24
The Internal Revenue Service Does Not Adequately Assess the
                 Effectiveness of Its Training




                                                      Page 25
The Internal Revenue Service Does Not Adequately Assess the
                 Effectiveness of Its Training




                                                      Page 26
